     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106



June 30, 2010

Report Number: A-07-10-04157

Andrew Allison, Ph.D.
Executive Director
Kansas Health Policy Authority
Room 900-N Landon State Office Building
Topeka, KS 66612

Dear Dr. Allison:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Family Planning Pharmacy Claims Submitted by
Selected Providers Under the State of Kansas Medicaid Program. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-10-04157 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Andrew Allison, Ph.D.

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


 REVIEW OF FAMILY PLANNING
     PHARMACY CLAIMS
       SUBMITTED BY
    SELECTED PROVIDERS
 UNDER THE STATE OF KANSAS
    MEDICAID PROGRAM




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-07-10-04157
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Kansas, the Kansas Health Policy Authority
(State agency) is responsible for administering the Medicaid program.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as Federal financial participation (FFP) or alternatively as the Federal share, is
determined by the Federal medical assistance percentage (FMAP). The State agency’s FMAP
ranged from 59.43 percent to 68.31 percent for claims paid from July 1, 2005, through
June 30, 2009.

Federal requirements also make provisions for various specified services to be reimbursed at
higher (that is, enhanced) rates of FFP. Section 1903(a)(5) of the Act and 42 CFR
§§ 433.10(c)(1) and 433.15(b)(2) authorize reimbursement at an enhanced 90-percent FFP rate
for family planning services. Section 4270 of the CMS State Medicaid Manual defines family
planning services as those that prevent or delay pregnancy or otherwise control family size.

The Family Planning program provides enhanced 90-percent FFP reimbursement for certain
prescription drugs. Most of the drugs covered as family planning services and reimbursable at
the 90-percent FFP rate are used for birth control or for the stimulation of ovulation in infertile
women. Other medications that are allowable at the 90-percent FFP rate are used incident to, or
as part of, procedures performed for family planning purposes, such as pain medications
following a sterilization procedure. During State fiscal years 2006 through 2009, the State
agency had claims for family planning prescription drugs of $3,580,597 ($3,222,537 Federal
share).

OBJECTIVE

Our objective was to determine whether the family planning pharmacy claims submitted by
providers and claimed by the State agency at the enhanced 90-percent FFP rate from
July 1, 2005, through June 30, 2009, were allowable pursuant to Federal requirements.

SUMMARY OF FINDINGS

Not all of the family planning pharmacy claims submitted by providers and claimed by the State
agency at the enhanced 90-percent FFP rate from July 1, 2005, through June 30, 2009, were
allowable pursuant to Federal requirements. Of the 100 claims in our sample, 69 qualified as
family planning services and could be claimed for reimbursement at the enhanced
90-percent FFP rate. However, the remaining 31 claims in our sample totaling $201 (Federal
share) were not allowable for reimbursement at the enhanced 90-percent FFP rate because the

                                                 i
services in question could not be claimed as family planning services pursuant to Federal
requirements. Specifically, of the 31 remaining claims, the State agency claimed drug costs for:

    •   17 services related to beneficiaries who were pregnant,
    •    8 services that were unrelated to family planning, and
    •   6 services that lacked sufficient supporting documentation.

Based on the results of our sample, we estimated that the State agency received $151,526 in
unallowable Federal reimbursement. These errors occurred because the Medicaid Management
Information System’s (MMIS) edits did not always correctly identify claims for reimbursement
at the enhanced 90-percent FFP rate.

RECOMMENDATIONS

We recommend that the State agency:

   •    refund $151,526 to the Federal Government and

   •    strengthen internal controls to ensure that MMIS edits appropriately identify claims that
        are ineligible for reimbursement at the enhanced 90-percent FFP rate.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency did not directly address our findings
and recommendations. The State agency said that it would work with CMS to determine the
timing and amount of Medicaid funds that the State agency should refund to the Federal
Government. Regarding our second recommendation, the State agency alluded to difficulties in
confirming cases in which family planning prescription drugs were used for other purposes, and
said that it would “create edits and audits … for future claims for family planning services when
CMS identifies a practical method of distinguishing claims for medicinal contraceptives that are
prescribed for other purposes.” The State agency added that our recommendation “to ensure
contraceptives are never submitted for enhanced match, and to ensure this by requiring providers
to create a unique and unprecedented process for marking each prescription of contraceptives
with the diagnosis, places undue and disproportionate burden on providers, increases
administrative costs for the state, and is therefore not feasible.”

The State agency’s written comments also referred to a third recommendation, which does not
appear in our final report. The State agency’s comments are included in their entirety as
Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings and recommendations.
The State agency did not address the majority of the unallowable claims identified in our
statistical sample. Accordingly, we continue to believe that the State agency should strengthen
its internal controls to ensure that services unrelated to family planning are not claimed at the
enhanced 90-percent family planning FFP rate.

                                                 ii
                                                 TABLE OF CONTENTS
                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            State of Kansas Medicaid Program .................................................................. 1
            Medicaid Coverage of Family Planning Services ............................................ 1
            Medicaid Management Information System .................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 3
             Objective .......................................................................................................... 3
             Scope................................................................................................................ 3
             Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 4

      UNALLOWABLE FAMILY PLANNING SERVICES ................................................. 4
            Pregnancy......................................................................................................... 4
            Services Unrelated To Family Planning .......................................................... 5
            Lack of Documentation.................................................................................... 5

      CAUSES OF THE OVERPAYMENTS .......................................................................... 5

      UNALLOWABLE FAMILY PLANNING CLAIMS ..................................................... 5

      RECOMMENDATIONS ................................................................................................. 6

      STATE AGENCY COMMENTS .................................................................................... 6

      OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                   iii
                                    INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal
and State Governments jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements.

State of Kansas Medicaid Program

In Kansas, the Kansas Health Policy Authority (State agency) is responsible for administering
the Medicaid program. The State agency contracts with HP Enterprise Services (formerly
Electronic Data Systems) to maintain its Medicaid Management Information System (MMIS),
a computerized payment and information reporting system that processes and pays Medicaid
claims.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as Federal financial participation (FFP) or alternatively as the Federal share, is
determined by the Federal medical assistance percentage (FMAP). The State agency’s FMAP
ranged from 59.43 percent to 68.31 percent for claims paid from July 1, 2005, through
June 30, 2009. Federal requirements also make provisions for various specified services to be
reimbursed at higher (that is, enhanced) rates of FFP.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and
supplies to individuals of childbearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and
supplies. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2)
authorize reimbursement at an enhanced 90-percent FFP rate for family planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) defines family planning
services as those that prevent or delay pregnancy or otherwise control family size. In
addition, this provision of the manual generally permits an enhanced 90-percent FFP rate for
the following items and services: counseling services and patient education; examination and
treatment by medical professionals pursuant to States’ requirements; devices to prevent
conception; and infertility services, including sterilization reversals. The manual further
specifies that an abortion may not be claimed as a family planning service. Pursuant to the
provisions of the manual, only items and procedures clearly furnished or provided for family
planning purposes may be claimed at the enhanced 90-percent FFP rate.


                                               1
CMS issued Financial Management Review Guide Number 20 (the guide) to the State agency
via Medicaid State Operations Letter 91-9. The guide states that any procedure provided to a
woman known to be pregnant may not be considered a family planning service reimbursable
at the enhanced 90-percent FFP rate. The guide allows the State agency to use a variety of
coding systems and codes for the pharmaceuticals that the State agency reimburses under
Medicaid. Most of the medications covered as family planning services and reimbursable at
the 90-percent FFP rate are used for birth control or for the stimulation of ovulation in
infertile women. Other medications that are allowable at the 90-percent FFP rate are used
incident to, or as part of, procedures performed for family planning purposes, such as pain
medications following a sterilization procedure. However, the guide does not specifically list
what pharmaceutical codes may be reimbursed at the enhanced 90-percent FFP rate.

The State agency’s requirements define family planning services as any medically approved
treatment, counseling, drugs, supplies, or devices which are prescribed, or furnished by a
provider, to individuals of child-bearing age for purposes of enabling such individuals to
freely determine the number and spacing of their children. The State agency’s State plan says
that family planning services provided by physicians have no limitations; however, services
provided in health departments are limited to one initial visit per customer, one annual visit
per year, and interim visits as needed.

During State fiscal years 2006 through 2009, the State agency had claims for family planning
prescription drugs of $3,580,597 ($3,222,537 Federal share).

Medicaid Management Information System

Providers enrolled in the Medicaid program submit claims for payment to the State agency’s
MMIS, which is maintained by the State agency’s fiscal agent. The State agency furnishes to
providers an MMIS provider manual that contains instructions for the proper completion and
submission of claims. The provider must complete certain fields on the electronic claim form
to indicate the type of service provided.

The MMIS uses a variety of indicators on the electronic claim form to identify family
planning services that are eligible for reimbursement at the enhanced 90-percent FFP rate. In
addition, the State agency’s MMIS includes edits and logic to verify that the provider
correctly selected the appropriate indicator. If these edits revealed that the provider selected a
family planning indicator for services unrelated to family planning services, the claim was
returned to the provider for correction and resubmission. If the MMIS logic verified that the
provider correctly selected the appropriate indicator, those services were reported to CMS for
the appropriate amount of Federal reimbursement.




                                                  2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the family planning pharmacy claims submitted by
providers and claimed by the State agency at the enhanced 90-percent FFP rate from
July 1, 2005, through June 30, 2009, were allowable pursuant to Federal requirements.

Scope

We reviewed the $3,580,597 ($3,222,537 Federal share) that the State agency claimed for
prescription drugs related to family planning services in Kansas from July 1, 2005, through
June 30, 2009. We did not review the overall internal control structure of the State agency or
the Medicaid program. Rather, we reviewed only the internal controls that pertained directly
to our objective.

We performed fieldwork at the State agency’s offices in Topeka, Kansas, from July 2009
through February 2010.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, guidance and the State plan;

    •   held discussions with CMS officials and acquired an understanding of CMS
        requirements and guidance furnished to State agency officials concerning Medicaid
        family planning claims;

    •   held discussions with State agency officials to ascertain State agency policies,
        procedures, and guidance for claiming Medicaid reimbursement for family planning
        services;

    •   reconciled current period, prior period, and waiver 1 family planning claims reported
        on the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
        Medical Assistance Program (CMS-64 report), 2 back to the State agency’s supporting
        documentation;

    •   selected a simple random sample of 100 prescription drug claims from the Family
        Planning Program;


1
 During the audit period the State agency reported family planning expenditures to CMS under waivers for
Mental Health and Substance abuse.
2
  The CMS-64 report summarizes actual Medicaid expenditures for each quarter and is used by CMS to
reimburse States for the Federal share of Medicaid expenditures.

                                                       3
   •    obtained and reviewed the supporting documentation for each sampled claim to
        determine the allowability of the claim; and

   •    provided the results of our review, to include the medical documents related to the 31
        claims not eligible for the 90-percent FFP rate, to State agency officials.

Appendixes A and B contain the details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Not all of the family planning pharmacy claims submitted by providers and claimed by the
State agency at the enhanced 90-percent FFP rate from July 1, 2005, through June 30, 2009,
were allowable pursuant to Federal requirements. Of the 100 claims in our sample, 69
qualified as family planning services and could be claimed for reimbursement at the enhanced
90-percent FFP rate. However, the remaining 31 claims in our sample totaling $201 (Federal
share) were not allowable for reimbursement at the enhanced 90-percent FFP rate because the
services in question could not be claimed as family planning services pursuant to Federal
requirements. Specifically, of the 31 remaining claims, the State agency claimed drug costs
for:

    •   17 services related to beneficiaries who were pregnant,
    •    8 services that were unrelated to family planning, and
    •    6 services that lacked sufficient supporting documentation.

Based on the results of our sample, we estimated that the State agency received $151,526 in
unallowable Federal reimbursement. These errors occurred because the MMIS’s edits did not
always correctly identify claims for reimbursement at the enhanced 90-percent FFP rate.

UNALLOWABLE FAMILY PLANNING SERVICES

Pregnancy

The guide, part (IV)(E), states that “[b]y definition, any procedure provided to a woman who
is known to be pregnant cannot be considered a family planning service reimbursable at 90-
percent FFP.”

Contrary to these Federal guidelines, the State agency improperly claimed Federal
reimbursement for 17 drug costs submitted by providers that were not allowable for
reimbursement at the enhanced 90-percent FFP rate. The State agency claimed drug costs for
17 instances in which physicians prescribed prenatal vitamins to pregnant women. Therefore,

                                                4
the drug costs related to the 17 claims were not allowable for reimbursement at the Family
Planning Program’s enhanced 90-percent FFP rate.

Services Unrelated to Family Planning

Section 4270 of the manual defines family planning services as those that prevent or delay
pregnancy or otherwise control family size. The manual states that only items and procedures
clearly furnished or provided for family planning purposes may be claimed at the enhanced
90-percent FFP rate.

Contrary to these Federal guidelines, the State agency improperly claimed Federal
reimbursement for drug costs associated with eight services unrelated to family planning that
were not allowable for reimbursement at the enhanced 90-percent FFP rate. The
documentation contained in the medical files stated that doctors issued prescriptions for
hormone or bleeding control and for therapeutic reasons. Therefore, the drug costs related to
the eight claims were not allowable for reimbursement at the Family Planning Program’s
enhanced 90-percent FFP rate.

Lack of Documentation

Section 1902(a)(27) of the Act and 42 CFR §§ 431.17 and 433.32 require that services
claimed for Federal Medicaid reimbursement be documented.

Contrary to these Federal requirements, the State agency improperly claimed Federal
reimbursement for drug costs for six claims that were not allowable for reimbursement at the
enhanced 90-percent FFP rate because the doctors could not provide documentation to support
the services billed. Therefore, the drug costs related to the six claims were not allowable for
reimbursement at the Family Planning Program’s enhanced 90-percent FFP rate.

CAUSES OF THE OVERPAYMENTS

The MMIS’s edits did not always correctly identify claims for reimbursement at the enhanced
90-percent FFP rate. To classify family planning claims, the State agency’s MMIS has edits
and logic to identify prescription drug claims that are based on a list of National Drug Codes
(NDC) 3 that are allowable under the Family Planning program. The State agency identified
these NDCs because their utilization typically relate to an allowable Family Planning
diagnosis. However, the MMIS included prescription drug claims that related to both family
planning and non-family planning diagnoses.

UNALLOWABLE FAMILY PLANNING CLAIMS

Our sample found 31 errors totaling $201 (Federal share) of unallowable Federal
reimbursement. Based on the results of our sample, we estimated that the State agency
received $151,526 in unallowable Federal reimbursement.

3
  Drug products are identified using a unique, three-segment number called the National Drug Code (NDC). The
first two segments of this code identify the manufacturer and the drug product.

                                                       5
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $151,526 to the Federal Government and

   •   strengthen internal controls to ensure that MMIS edits appropriately identify claims
       that are ineligible for reimbursement at the enhanced 90-percent FFP rate.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency did not directly address our findings
and recommendations. The State agency said that it would work with CMS to determine the
timing and amount of Medicaid funds that the State agency should refund to the Federal
Government.

Regarding our second recommendation, the State agency stated that “[t]he OIG’s [Office of
Inspector General] audit methodology identified claims that could not be linked to a family
planning diagnosis, but this methodology did not delineate a specific diagnosis for each of
those claims.” The State agency also said that we did not verify the specific purpose behind
each use of contraceptives or provide a feasible method to distinguish the diagnosis for each
use of contraceptive medications. Referring to these and other difficulties in confirming cases
in which family planning prescription drugs were used for other purposes, the State agency
said that it would “create edits and audits … for future claims for family planning services
when CMS identifies a practical method of distinguishing claims for medicinal contraceptives
that are prescribed for other purposes.”

The State agency added that our recommendation “to ensure contraceptives are never
submitted for enhanced match, and to ensure this by requiring providers to create a
unique and unprecedented process for marking each prescription of contraceptives
with the diagnosis, places undue and disproportionate burden on providers, increases
administrative costs for the state, and is therefore not feasible.”

The State agency’s written comments also referred to a third recommendation, which does not
appear in our final report. The State agency’s comments are included in their entirety as
Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings and
recommendations. The State agency focused its comments on a discussion of the problems
related to the proper use of contraceptive drugs, but that issue related to only 8 of the 31
unallowable claims in our sample. The State agency did not address either our findings
regarding beneficiaries who were pregnant, which accounted for 55 percent of the errors in
our statistical sample, or our findings regarding the lack of sufficient supporting
documentation, which accounted for 26 percent of the errors.

                                                6
With respect to the State agency’s statement that we did not provide a feasible method to
distinguish the diagnosis for each use of contraceptive medications, it is the State agency’s
responsibility to administer the Family Planning Program in accordance with Federal
requirements. Accordingly, the State agency should have adequate internal controls to ensure
that services unrelated to family planning are not claimed at the enhanced 90-percent family
planning FFP rate.

Prescription contraceptive drugs were prescribed for reasons other than family planning and
were erroneously claimed by the State agency for Federal reimbursement under the enhanced
90-percent family planning FFP rate. As stated in our Methodology, we provided the State
agency with the claims that we had identified as unrelated to family planning, as well as the
medical records associated with these claims. We also provided the State agency with the
specific diagnosis for each incorrect claim and the purpose behind the prescribed drug
involved in that claim. Because these claims were not related to family planning, the State
agency should refund the enhanced Federal reimbursement to the Federal Government.




                                               7
APPENDIXES
                                                                                      Page 1 of 2


              APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consists of all paid prescription drug claims for which the State agency
received reimbursement at the enhanced 90-percent Federal financial participation (FFP) rate
for services furnished to Medicaid beneficiaries claimed during the period July 1, 2005,
through June 30, 2009.

SAMPLING FRAME

We obtained a database of paid claims for the Family Planning Program that were submitted
by the Medicaid providers of the State of Kansas, for the period July 1, 2005, through
June 30, 2009. The database contains 211,496 claim lines totaling $19,993,630. The
Medicaid claim lines were extracted from the paid claims’ database maintained by the State
agency’s fiscal agent.

We extracted 133,810 prescription drug claim lines and created a separate database. The
prescription drug claim lines were reduced by 430 zero-paid claim lines and 21,574 voided
claim lines, leaving 111,806 prescription drug claim lines, which we converted to 111,799
prescription drug claims. The total Medicaid reimbursement for the 111,799 paid claims was
$3,580,597, of which the Federal share was $3,222,537.

The Medicaid prescription drug claims were extracted by our advanced audit techniques staff
from the State agency’s Medicaid claim files provided to us by the State agency’s fiscal agent
from the Medicaid Management Information System.

SAMPLE UNIT

Sampling unit was a paid prescription drug claim for Medicaid Family Planning services.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

One hundred sample units (claims) were selected for review.
                                                                                  Page 2 of 2


SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for Medicaid Family Planning
services.
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                           Sample Details and Results
Claims in    Value of      Sample     Value of    Unallowable       Value of
Frame        Frame         Size       Sample      Claims            Unallowable
             (Federal                 (Federal                      Claims
             Share)                   Share)                        (Federal
                                                                    Share)
 111,799     $3,222,537       100           $3,027          31          $201


                                    Estimates
             (Limits Calculated for a 90 Percent Confidence Interval)

                          Point Estimate:        $224,184
                          Lower Limit:           $151,526
                          Upper Limit:           $296,842
                                                                                                                                           Page 1 of3



                            APPENDIX C: STATE AGENCY COMMENTS


            fi~~o;~!~~i:::~ health
                            Kansal
                                   & health care




                             HPA
                            KANSAS HEALTH POLICY AUTHORrTY


                                                              May 13, 2010


Patrick Cog ley
Regional Inspector General
601 East 1i h Street
Room 0429
Kansas City, Missouri 64106

Re: Revised response.

Dear Mr. Cogley:

The Ka nsas Health Policy A uthority (KHPA) has received the draft report entitled Review of Family
Planning Pharmacy Claims Submitted by Selected Providers under the State of Kansas Medicaid
Program .

This is in the revised response to the Office of Inspector General (GIG) audit Report Number A-07­
10-04157 find ing #1.

KHPA Comm ents on D IG Recom mendations

        1. 	 We recommend that the State agency:
                   • 	 Re fund $151 ,526 to the federal Government,
                   • 	 Strengthen intemal controls to ensure the MMIS ed its appropriately identify claims
                       that are ineligible for reimbursement at the enhanced 90 - percent FF P ra te , and
                   • 	 Instruct providers to submit family planning claims separately and to mark the fa mily
                       planning indicator only for family planning services.

           KHPA Response:

           KHPA will work with eMS to determine the timing and the amount of Medicaid funds KHPA
           should refund to the Federal government. The OIG's audit methodology identified claims that
           could not be linked to a family planning diagnosis, but this methodology did not delineate a
           specific diagnosis for each of those claims. In working with eMS to identify an appropriate
           amount to refund, we will ask that eMS confirm each case in which contraceptives were used
           for other purposes. Such confirmation may prove difficult, if not impossible, illustrating KHPA 's

                                   Rm. 9(I(I ·N. L.:IndoB OuiI4inj;. 900 SW J.<:k""" SIf«1. Toprl• . KS 66612·1220
                                                              ...."'..... khp •. k' .gov
                                                         SWl£ Em' ''Qm: ' '''lIb Plio:                               SIOII'S<lflrlllnru;. fund·
Phone:     715·296-J9&1                                  PI><one: 	 181· J68-6J61                                    _     ,   7U·296-2J601
r ..,      715-296-4&1J 	                                F..·        785-J68 ·718Q                                   F..:       7U-296.()99l
                                                                                                Page 2 of3




Cogley
May 13, 2010
Page 2



     dilemma in implementing the O/G's other recommendations. KHPA wi/{ create edits and audits
     as recommended by DIG for future claims for family planning services when eMS identifies a
     practical method of distinguishing claims for medicinal contraceptives that are prescribed for
     other purposes.

     Longstanding Federal policy encourages liberal coverage of family planning services through
     an enhanced match rate . Prescription contraceptives are the prevailing method of birth controJ
     and family planning. The O/G 's audit has confirmed that prescription contraceptives drugs can
     be used for other purposes by identifying such claims among those submitted by Kansas
     Medicaid for the enhanced federal match of 90"/0. However, the OIG has not identified a
     feasible method for Kansas Medicaid to distinguish the diagnosed purpose for each use of
     contraceptive medications. Indeed, the OIG 's audit of family planning claims in Kansas did not
     verify the specific purpose behind each use of contraceptives. In many cases, claims for
     contraceptive medicines identified for disallowance were those where a contraceptive purpose
     could not be confirmed.

      The O/G's recommendation to ensure that contraceptives are never submitted for enhanced
      match, and to ensure this by requiring providers to create a unique and unprecedented
      process for marking each prescription of contraceptives with the diagnosis, places undue and
      disproportionate burden on providers, increases administrative costs for the state, and is
      therefore not feasible. Ensuring that enhanced match is claimed only for medications used for
      family planning would require submission of the diagnosiS code on every medication potentially
      used for family planning. Collection of the diagnosis is not a function of the pharmacy provider
      and would impose a significant increase in workload in both claims processing and contacting
      the prescribing physician to verify the diagnosis for which it was prescribed. KHPA 's queries to
      other states found none that require a diagnosis as part of a pharmaceutical claim. The
      recommendation is out of step with the practice of medicine and threatens the single most
      important component of family planning services: access to contraceptive medications. As a
      result, the recommendations are inconsistent with Federal policy encouraging appropriate, but
      unhindered, access to family planning services for Medicaid reCipients.

      We do not dispute the ambiguous or alternative purposes behind the use of some
      contraceptives, but question whether Congress intended Medicaid programs to police these
      intentions. We recommend that the HHS OIG suspend investigations of State Medicaid
      programs in this specific area and instead work with CMS policy staff to ensure consistency
      between HHS policy and O/G audit criteria. For example, HHS program staff may determine
      that accuracy in state claims for enhanced matching payments for Medicaid family planning
      services is of sufficient importance to merit changes in the practice of mediCine, such as:
          • 	 the inclusion of a diagnosis on all prescriptions;
          • 	 use a separate prescription pad designed specifically for the purpose of capturing a
              diagnosis or including a checkmark that indicates use of a contraceptive for either
              contraception or other purposes; or
          • 	 Mandatory queries of women with Medicaid coverage at the prescription counter to
              confirm the specific intent.
                                                                                                   Page 3 of3




Cogley
May 13, 2010
Page 3

      Assignment of the family planning Indicator is an internal KHPA function. Appropriate
      assignment of the family planning indicator to ensure correct claiming of the enhanced match
      is being addressed by policies to correct those internal processes. KHPA will also continue to
      work and offer training to providers. If additional provider education is necessary to ensure
      accurate reporting, KHPA will issue provider bulletins and instructions on the use of the family
      planning indicator.

KHPA appreciates the efforts of the OIG staff in conducting this audit and being willing to discuss
issues during the audit process. Thank you for the opportunity to respond to this draft audit report.

                                          Sincerely,




                                          Andrew Allison, PhD 

                                          Executive Director 

